L.( 3

UNITED STATES OF AMERICA

FEDERAL TRADE COMMISSION
WASHINGTON , D. C. 20580

Division of Marketing Practices

Laurie Meehan
Attorney
Direct Dial

202- 326- 3755

October 31 ,

1997

Lisa Carlson
Executive Director
Funeral & Memorial Societies of America, Inc.
O. Box 10
Hinesburg, Vermont 05461

Dear Ms. Carlson:
Than you for your letter of October 24 , 1997. I apologize for the fact that you received
no response to your July 14 , 1997 correspondence; however , this correspondence was never
received in this office. I regret any inconvenience that this may have caused. Staff of the FTC is
concerned about fueral industry practices that may be unfair or deceptive , and we appreciate
your efforts to bring such potentially unlawfl practices to our attention.

The practices you describe surounding the " required identification viewing " and the
additional storage charges in the event a consumer elects not to identifY a body are certainly
distubing. Staff is especially concerned that in the context of "required identification viewing,
fueral providers may be misrepresenting that there are legal requirements that engender delay,
the necessity to store remains for some period of time , and consequently, additional charges.
Staff is unaware of any state law requirement that demands an identification, forms and other
paperwork , or , where that identification is not performed , a waiting period of several days , prior
to cremation. If there are no state law requirements regarding forms , paperwork or identification
of the body for cremation , and a fueral provider is representing that these laws exist , in staff s
view, such misrepresentations would likely affect the conduct of a consumer acting reasonably
under the circumstances with respect to a fueral provider s offered goods and services.
Therefore , such practices would likely be deceptive , in violation of 9 5 of the FTC Act.
Moreover , in staffs view, a provider that makes such misrepresentations would also be in
violation of Section 453.3 (d)(I) of the Funeral Rule , which states that " it is a deceptive act or

state , or local laws , or paricular
cemeteries or crematories , require the purchase of any fueral goods or fueral services when
such is not the case.

practice for fueral providers to represent that federal ,

Furher , apar from the scenarios described above , you alleged more generally that some
consumers who opt for direct cremation are being charged a fee for a " required identification
viewing. " Such a fee , if it is non- declinable , may also violate the Funeral Rule. The only
permissible non- declinable charges are the basic services fee and , in some instances , fueral
goods and services that are required to be purchased by law. Thus , if a fueral provider charges a
consumer for "required identification viewing " of the deceased , and it is neither par of the basic
services fee nor required by law , the unavoidable charge would likely be in violation of Section
453.4 (b)(1) of the Funeral Rule. I should note that staff at the FTC is unaware of any state law
requiring that an "identification" be purchased as a service or good from a fueral home.
In your letter , you also request that the FTC endorse several statements which you state
were prompted by recent consumer experiences that have been reported to your office. First , I
interpret your request to be a solicitation for a staff opinion as to whether the several statements
in your letter comport with the FTC' s Funeral Rule. Accordingly, for puroses of clarity, the
following reflects a staff opinion regarding whether the statements you proposed in your July 14
1997 letter comport with the Funeral Rule and accurately reflect the scope of the Rule.

The first statement is that "No consumer may be charged for identifYing a deceased. " As
discussed above , if a charge for identification of the deceased is non- declinable , and not within
the permissible non- declinable charges , it is likely a violation of the Funeral Rule. Accordingly,
under those circumstances , a consumer should not be charged for identifYing a deceased.
However, it is possible that fueral providers might offer consumers an opportunty to view a
deceased as a service or good , perhaps akin to the use of facilities and staff for viewing or other
services , prior to cremation. In that scenario , it is possible that a fueral provider may offer an
optional use of facilities and staff for viewing a deceased with a charge.
Second , you propose that the FTC endorse the statement that

No consumer may be forced to view a deceased body for " routine " identification
puroses. If there is any question as to the identity of the deceased , it is the
responsibility of the fueral home to ascertain such before performing services of
any kind for which there wil be a charge , including removal.

In staff s view, the issue of identification of a deceased prior to final disposition of the remains is
probably appropriately addressed by state or local regulatory law enforcement authority. In the
absence of material misrepresentations , the provisions of the Funeral Rule simply do not address
the policies , practices and methods that a funeral provider uses to identifY remains. The purose
of the Funeral Rule , in par , is to make price information readily available to consumers to enable
them to do comparative shopping for fueral goods and services. In addition, disclosures
required to appear on the general price list inform consumers that they have the right to purchase

only those goods and services that they specifically select. The Rule seeks to promote informed
decision-makng so that consumers are able to make fueral arangements that are within their
means. Furher, the Funeral Rule addresses other unair or deceptive practices in the context of
purchasing fueral goods and services. It has not yet been established that the practices or
policies of fueral homes , with respect to requiring an identification, are either unair or
deceptive. I should note , though , that additional facts and circumstances may prove that
practices regarding identification are unair or deceptive and , thus , in violation of the Funeral
Rule and the FTC Act.
Third , you request that the FTC endorse the statement that

Next-of-kin or other designated person(s) must be permitted private time with the
body of a deceased in order to say their " goodbyes " ifthey wish. A mortar may
not require embalming for this purose. A mortar may charge a per-hour or
per- day fee for the use of a room in its facilities for this but may not limit the
amount of time for private visitation.

As with the second statement, above , that you proposed , the issue of "private time " with the
deceased is simply outside the scope ofthe Funeral Rule. Again, though, I should note that if the
circumstances surounding a funeral home s practices with respect to allowing or not allowing
private time " with the deceased amounted to an unfair or deceptive practice , such practices
would likely violate the Funeral Rule or the FTC Act. Without additional information, however
and within the confines of the Funeral Rule , staff at the FTC are unable to endorse the
aforementioned statement.
Finally, please be advised that the views expressed in this letter are those of the FTC
staff. They have not been reviewed , approved or adopted by the Commission, and they are not
binding upon the Commission. However, they do reflect the opinions of those staff members
charged with enforcement of the Funeral Rule.

I hope that you will find the above information helpful. We appreciate your interest in
this matter. Please let us know whenever we can be of assistance.

Sin

Laurie M. Meehan

UND STATE OF AMRICA

FEDERA TRAE COMMISSION
WASHIGTON , D. C. 20580

Division of Marketing Practices
Laurie Meehan

Attorney
Direct Dial

202- 326- 3755

October 31 ,

1997

Lisa Carlson
Executive Director
Funeral & Memorial Societies of America , Inc.
O. Box 10
Hinesburg, Vermont 05461

Dear Ms. Carlson:

no

Than you for your letter of October 24 1997. I apologize for the fact that you received
response to your July 14 , 1997 correspondence; however , ths correspondence was never

received in ths offce. I regret any inconvenience that ths may have caused. Sta of the FTC is
that may be unai or deceptive , and we appreciate
your efforts to bring such potentially iuawf practices to our attention.
concerned about fueral industr practices

The practices you describe surounding the "required identification viewig " and the
additional storage charges in the event a consumer elects not to identifY a body are certaiy
distubing. Sta is especially concerned that in the context of "required identification viewig,
fueral providers may be misrepresenting that there are legal requirements that engender delay,
the necessjty to store remains for some period of time , and consequently, additional charges.
Staff is unaware of any state law requiement that demands an identification , forms and other
paperwork, or , where that identification is not performed , a waiting period of several days , prior
to cremation. If there are no state law requirements regarding forms , paperwork or identification
of the body for cremation, and a fueral provider is representing that these laws exist , in stafs
view, such misrepresentations would likely affect the conduct of a consumer acting reasonably
under the circumstances with respect to a fueral provider s offered goods and services.
Therefore , such practices would likely be deceptive, in violation of 95 of the FTC Act.
Moreover , in stafs view, a provider that makes such misrepresentations would also be in
violation of Section 453.3 (d)(l) of the Funeral Rule , which states that "it is a deceptive act or

practice for fueral providers to represent that federal ,

state , or local laws, or paricular

cemeteries or crematories , require the purchase of any fueral
such is not the case.

goods or fueral services

when

Furer, apar from the scenaos described above, you alleged more generally that some
consumers who opt for direct cremation are being charged a fee for a " required identification
viewig. " Such a fee , if it is non- declinable , may also violate the Funeral Rule. The only
permissible non- declinable charges are the basic services fee and , in some instances , fueral
goods and services that are required to be purchased by law. Thus , if a fueral provider charges a
consumer for "required identification viewing" of the deceased, and it is neither par of the basic
services fee nor requied by law, the unavoidable charge would likely be in violation of Section
453.4 (b)(I) of the Funeral Rule. I should note that staf at the FTC is unaware of any state law
requiring that an "identification" be purchased as a service or good from a fueral home.
In
your letter, you also request that the FTC endorse several statements which you state
were prompted by recent consumer experiences that have been reported to your offce. First, I
interpret your request to be a solicitation for a sta opinion as to whether the several statements
in your letter comport with the FTC' s Funeral Rule. Accordingly, for puroses of clarty, the
following reflects a staf opinion regarding whether the statements you proposed in your July 14
1997 letter comport with the Funeral Rule and accurately reflect the scope of the Rule.

The first statement is that "No consumer may be charged for identifYing a deceased. " As
discussed above , if a charge for identification of the deceased is non- declinable , and not with
the permssible non- declinable charges, it is likely a violation of the Funeral Rule. Accordingly,
under those circumstaces , a consumer should not be charged for identifYing a deceased.
However, it is possible that fueral providers might offer consumers an opportty to view a
deceased as a service or good, perhaps ak to the use of facilities and sta for viewing or other
services , prior to cremation. In that scenaro , it is possible that a fueral provider may offer an
optional use of facilties and staff for viewing a deceased with a charge.
Second , you propose that the FTC endorse the statement that

No consumer may be forced to view a deceased body for "routine " identification
puroses. If there is any question as to the identity of the deceased , it is the
responsibility of the fueral home to ascertain such before performg services of
any kind for which there will be a charge , including removal.

staffs view, the issue of identification of a deceased prior to final disposition of the remains is
In the
absence of material misrepresentations , the provisions of the Funeral Rule simply do not address
the policies , practices and methods that a fueral provider uses to identifY remains. The purose
of the Funeral Rule, in par, is to make price inormation readily available to consumers to enable
In

probably appropriately addressed by state or local regulatory law enforcement authority.

them to do comparative shopping for fueral goods and services. In addition , disclosures

required to appear on the general price list inorm consumers that they have the right to purchase

only those goods and services that they specifically select. The Rule seeks to promote inormed
decision-makg so that consumers are able to make fueral arangements that are with their
mean s. Furer , the Funeral Rule addresses other unair or deceptive practices in the context of
purchasing fueral goods and services. It has not yet been established that the practices or
policies of fueral homes , with respect to requig an identification, are either unai or
deceptive. I should note , though , that additiona facts and circumstaces may prove that
practices regarding identification are unai or deceptive and, thus , in violation of the Funeral
Rule and the FTC Act.
Third, you request that the FTC endorse the statement that
Next-of-kin or other designated person(s) must be permitted private time with the
body of a deceased in order to say their "goodbyes " if they wish. A mortar may
not require embaling for ths purose. A mortar may charge a per- hour or
per- day fee for the use of a room in its facilities for this but may not limt the
amount of tie for private visitation.

As with the second statement, above , that you proposed , the issue of "private time" with the
deceased is simply outside the scope of the Funeral Rule. Agai, though, I should note that if the
circumstaces surounding a fueral home s practices with respect to allowig or not allowig
private time " with the deceased amounted to an unair or deceptive practice , such practices
would likely violate the Funeral Rule or the FTC Act. Without additional information, however
and withn the confnes of the Funeral Rule , sta at the FTC are unable to endorse the
aforementioned statement.
Finally, please be advised that the views expressed in ths letter are those of the FTC

staff. They have not been reviewed , approved or adopted by the Commission , and they are not
binding upon the Commission. However, they do reflect the opinons of those staff members
charged with enforcement of the Funeral Rule.
I hope that you will fmd the above information helpful. We appreciate your interest in
ths matter. Please let us know whenever we can be of assistace.

Laure M. Meehan

